No. 20-1120

In the Supreme Court of the United States
MELISSA BELGOU, ET AL.,
PETITIONERS,

v.
JAY INSLEE, ET AL.,

CERTIFICATE OF
WORD COUNT

RESPONDENTS.

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying State Of Washington’s Brief In Opposition, which was prepared
using Century Schoolbook 12-point typeface, contains 8,201 words, excluding the
parts of the document that are exempted by Rule 33.1(d).

This certificate was

prepared in reliance on the word-count function of the word-processing system
(Microsoft Word) used to prepare the document.
I am a member of the Bar of the Supreme Court of the United States.
DATED this 12th day of May 2021.
s/ Alicia O. Young
ALICIA O. YOUNG
Deputy Solicitor General
Counsel of Record
1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

